HHS/OIG-Audit--"Administrative Costs Claimed Under Part A of the HealthInsurance for the Aged and Disabled Program - Blue Cross and Blue Shield of Virginia,(A-03-90-00053)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Administrative Costs Claimed Under Part A of the Health Insurance for the Aged and Disabled Program - Blue Cross
and Blue Shield of Virginia," (A-03-90-00053)
August 17, 1992
Complete
Text of Report is available in PDF format (2.02 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Blue Cross/Blue Shield of Virginia (BCBSV) claimed $27.4 million for administering the Medicare Part A program during
the 5-year period ended September 30, 1989. Our audit showed that about $1.4 million of the costs claimed were unallowable.